Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       Organ Donor Registries

        A Useful, but Limited, Tool




                      JANET REHNQUIST
                      Inspector General

                        FEBRUARY 2002
                        OEI-01-01-00350
                           OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Boston Regional Office prepared this report under the direction of Mark R Yessian, Ph.D.,
Regional Inspector General, and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector General.
Principal OEI staff included:

Boston Region                                                                          Headquarters

Russell W. Hereford, Ph.D., Project Leader                            Alan Levine, Program Specialist

Norman Han, M.P.A., Program Analyst

Julia Green, B.A., Program Analyst





       To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
           Reports are also available on the World Wide Web at our home page address:

                                          http://oig.hhs.gov/oei
                     EXECUTIVE                            SUMMARY

PURPOSE
      To assess the value of donor registries as a strategy for increasing organ donation

BACKGROUND
      Almost 80,000 Americans are waiting for organ transplants, yet fewer than 23,000 received a
      transplant in the year 2000. About 5,600 people died while awaiting an organ transplant. An
      estimated 12,000 to 15,000 deaths a year could yield suitable donor organs, but fewer than half
      of those deaths resulted in organ donation.

      The Department of Health and Human Services has taken actions to increase donation. These
      steps include grants and technical assistance to organ procurement organizations (OPOs) and
      other transplant entities. Medicare requires hospitals to notify their OPO about all individuals
      whose death is imminent or who die in the hospital, thus ensuring that virtually all potential donors
      are referred for consideration.

      In many States a person who obtains or renews a driver’s license may indicate an intent to be a
      donor. In some—but not all—States, this intent is recorded in a “donor registry,” a central
      repository of information on that intent. When an OPO identifies a potential donor, it can contact
      the registry to determine whether the person indicated a wish to donate.

      Despite these efforts, the gap between the need for organs and their availability continues to
      grow. In April 2001, Secretary Thompson announced an initiative to encourage donation.
      Among other actions, the Secretary asked the Office of Inspector General to examine lessons
      that could be learned from existing donor registries. This report responds to that request.

      We base this report on a survey of all OPOs, review of State legislation, analysis of OPO and
      State web-sites, and interviews with more than 50 knowledgeable individuals from OPOs, State
      agencies, and other organizations.

FINDINGS
Organ donor registries are emerging as a useful tool. But the
contribution that registries can make to increasing the number of
organ donors is limited.
Organ procurement organizations and States are turning to donor registries as a
strategy for increasing organ donation.


Organ Donor Registries                              -i-                                      OEI-01-01-00350
      C	 Fourteen States operate registries; 22 of the nation’s 59 OPOs operate in these States.
         These States contain 39 percent of the nation’s population and 42 percent of donors.
      C	 OPOs in two additional States operate their own registries. These OPOs operate in States
         with 5 percent of the country’s population and 5 percent of donors.
      C	 Six other States, with 13 OPOs, have recently passed laws establishing registries. These
         States contain 21 percent of the country’s population and 19 percent of donors. In two of
         these States, however, the registries have not received start-up funding.

Donor registries have assisted OPOs’ organ procurement activities.
      C	 Registries have led to increased effectiveness and efficiency in OPO operations. In both our
         survey and in interviews, OPO directors told us the registry improves their ability to identify a
         decedent’s wishes about donation. They also told us the registry information is convincing for
         the decedent’s next-of-kin and for hospital staff.
      C	 OPOs have used data from the registry to focus public education and outreach about
         donation. OPO staff told us they analyze data on enrollment as a tool to help develop
         educational programs and to monitor the impact of these efforts geographically and on
         specific population groups.

However, there are limits to the contribution registries can make to increasing the
number of donors.
      C	 Registries’ measurable impact on increasing the number of organ donors has been marginal.
         Our analysis of data found that families of registry enrollees give consent for donation at a
         much higher rate than do families of non-enrollees; however, enrollees are a relatively small
         portion of all donors at those OPOs.
      C	 At present, enrollment in registries is limited. Even though the number of registrants is
         growing, only one-quarter of the adult population has enrolled.
      C	 While registries can foster interstate sharing of information about potential donors from other
         States, the number of such donors is small. Nationally, fewer than 20 percent of all donors-­
         an average of three donors per day--are from out-of-State.

We identified a number of practices that could enable OPOs to take fuller
advantage of the opportunities that registries offer.
      Our interviews with knowledgeable individuals, both in the OPO community and elsewhere,
      identified innovations that can help maximize registries’ contributions.

      C	 Registration. In addition to the usual drivers’ licensing process, some OPOs use prepaid
         mailings, Internet sign-up, and free-standing kiosks.
      C   Storage. Some motor vehicle agencies download relevant data to the OPOs, which maintain


Organ Donor Registries                             -ii-                                     OEI-01-01-00350
          the registry database. This permits faster access, while protecting other sensitive information
          in the drivers’ license records.
      C	 Retrieval. Some OPOs’ referral systems conduct automated queries of the registry whenever
         a potential donor is identified.
      C	 Using information. Some OPOs use the registry indication as primary evidence of consent
         and do not require additional consent from next-of-kin.

RECOMMENDATIONS
      We conclude from our review that caution should be exercised to avoid over-promising on the
      contributions that donor registries, by themselves, can make to increasing donation. We believe
      that the most appropriate use of Department resources with respect to donor registries is to foster
      ways of enhancing their effectiveness.

HRSA should establish a mechanism to provide for dissemination of information
on donor registries.
      A clearinghouse could enhance the effectiveness of donor registries. The clearinghouse could
      support information sharing and provide technical assistance. We would urge that it pay
      particular attention to three areas:
      C   Automation to take advantage of technology to overcome technical difficulties, particularly
          those related to retrieval of information;
      C   Innovation in identifying and developing new avenues for enrolling people, for example,
          through websites or using the Internet at community events; and
      C   Education on effective ways of informing the public about the registry, its benefits, and the
          need for organs.
To the extent that funding is available, HRSA could support research projects that
seek to maximize the impact that donor registries can have.
      Two areas merit particular consideration:
      C	 What more can be done to tap registries’ potential? Even those registries in place for many
         years contain a minority of the State’s population. Are there better ways to educate people
         about donation and joining the registry? What are alternatives to the driver’s licensing
         process for registering people? If people are reluctant to be listed in a large database, what
         can be done to allay those fears?
      C	 How widespread are concerns about using the registry as primary consent for donation?
         More OPOs are using information from the registry as evidence of consent, rather than
         relying on the family. How informed are people when they join a registry? Do they view
         enrollment as providing consent for donation? What are family expectations and
         understandings?



Organ Donor Registries                             -iii-                                    OEI-01-01-00350
COMMENTS ON THE DRAFT REPORT
      We received comments on the draft report from the Health Services and Research Administration
      (HRSA). HRSA concurs with our report and recommendation.

      The Association of Organ Procurement Organizations also provided comments. The association
      is concerned that we may understate the potential future value of registries, particularly if more
      OPOs begin to view enrollment in a registry as consent for donation. We base our report on the
      experiences of those who have worked with donor registries, and on a review of available
      data about registries. This review leads us to conclude that registries can be a useful tool
      in organ procurement. But we urge caution in assuming that establishing a registry will
      lead directly to a dramatic increase in the number of donors. At the same time, however,
      given the critical need for donors, even a moderate increase in their number can be
      beneficial. We certainly would encourage ongoing evaluation of new registries and other
      initiatives intended to increase donation.

      We present the full text of the written comments in Appendix C.




Organ Donor Registries                            -iv-                                   OEI-01-01-00350
                               TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


     Registries operate in many States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


     Registries can provide assistance to OPOs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


     Registries’ contributions are limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


     Taking advantage of registries’ potential . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18





APPENDICES

     A: Registry descriptions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


     B: Survey responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


     C: Comments on the draft report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


     D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31





Organ Donor Registries                                                                                                     OEI-01-01-00350
                               INTRODUCTION

PURPOSE

    To assess the value of donor registries as a strategy for increasing organ donation.

BACKGROUND

    Almost 80,000 Americans are waiting for organ transplants, yet fewer than 23,000 received a
    transplant in the year 2000. In that same year, about 5,600 people died while awaiting an organ
    transplant.1 An estimated 12,000 to 15,000 deaths occurring in the United States every year could
    yield suitable donor organs.2 However, only 6,000 of those deaths resulted in organ donation in the
    year 2000. Between 1995 and 2000, the number of patients awaiting a transplant grew by 80
    percent, while the number of donors grew by only 12 percent.3

The Department’s Role in Organ Donation

    Health Resources and Services Administration (HRSA). HRSA’s Division of Transplantation
    provides Federal oversight and support for the organ procurement, allocation, and transplantation
    system. HRSA is responsible for national coordination of organ donation activities, the funding of
    grants and special initiatives to learn more about what works to increase donation, and technical
    assistance to organ procurement organizations (OPOs) and other transplant-related entities. For
    example, HRSA recently funded 12 projects that examine strategies to increase organ and tissue
    donation, including one to assist with the development of a donor registry.

    HRSA also funds the Organ Procurement and Transplantation Network (OPTN) and the Scientific
    Registry of Transplant Recipients (SRTR). The OPTN is charged with operating and monitoring an
    equitable system for allocating organs, maintaining a waiting list of potential recipients, matching
    potential recipients with donors, and increasing organ donation. The SRTR supports the ongoing
    evaluation of the scientific and clinical status of solid organ transplantation in the United States.4

    Centers for Medicare & Medicaid Services (CMS). CMS specifies organ procurement
    service areas and certifies OPOs for participation in Medicare. Medicare provides coverage for
    End Stage Renal Disease. This coverage is unique, in that it is the only disease-specific condition
    that qualifies someone for Medicare, regardless of age. That coverage includes kidney
    transplantation.

    Since 1998, CMS has required that every hospital contact its OPO in a timely manner about
    individuals whose death is imminent or who die in the hospital. The OPO then determines



Organ Donor Registries                             -1-                                     OEI-01-01-00350
    the individual’s medical suitability for organ donation. Because the hospital notifies the OPO of
    each death or imminent death, the rule is intended to ensure that the family of every potential donor
    is informed of the option to donate organs, tissues, or eyes.

Organ Procurement Organizations
    OPOs provide the services necessary to coordinate the identification of potential organ donors,
    requests for donation, and recovery and transport of organs. OPOs work with medical
    professionals and the public to encourage organ donation. Every hospital has an agreement with
    one OPO.

    There are 59 OPOs in operation. Each OPO serves a defined geographic area. OPOs’ service
    areas contain populations ranging from just over 1 million people to more than 11 million people.
    CMS certifies OPOs for participation in Medicare and provides funding through the Medicare
    program.

Secretary’s Organ Donor Initiative

    Despite ongoing efforts, the gap between the need for organs and their availability continues to

    grow. In April 2001, Secretary Thompson announced an initiative to encourage donation. This

    initiative includes the following:

    C   Workplace partnerships,

    C   Development of a model donor card,

    C   Support of a national “Gift of Life” medal, 

    C   Development of a model curriculum for driver’s education classes, and

    C   A national forum on organ donor registries.


    As part of this initiative, the Secretary asked the Office of Inspector General to examine existing

    organ donor registries throughout the country. This report responds to that request.


Congressional Proposals

    Two bills have been introduced in the U.S. Senate to address the issue of donor registries. S.
    788 would establish a national donor registry that would work in conjunction with State registries.5
    S. 1062 would encourage development of and improve linkage among State donor registries.6

Donor Registries

    Donor registry is a catch-all term that describes a centralized repository of information indicating a
    person’s intent to donate organs and tissues. In many States people obtaining or renewing a
    driver’s license are able to indicate if they wish to be an organ donor. In some--but not all--of
    these States, this intention is recorded in a centralized data base--the registry.



Organ Donor Registries                              -2-                                      OEI-01-01-00350
    When an OPO identifies a potential donor, it can contact the registry to determine whether the
    person indicated intent to donate. Registries can offer numerous advantages compared to
    traditional methods for increasing donations including:

      C	 Greater efficiency: Registries allow OPOs to more easily identify interested donors. The
         information in registries can be accessed 24 hours a day. It does not rely on the physical
         presence of a driver’s license or donor card.
      C	 More explicit expression of intent: Registries give the opportunity for donors to specify which
         organs they want to donate, and for what purposes (e.g., transplantation, research).
      C	 More persuasive evidence of intent: Registry listings provide immediate documentation of an
         individual’s wish to donate. They also allow OPO staff to prepare themselves with information
         about the potential donor’s intent before contacting donor families.
      C	 Larger pool of donors: Increased publicity and expanded avenues for enrollment (e.g.,
         Internet-based enrollment, as well as the traditional driver’s license) allow more people to
         learn about donation and record their intent to donate.
      C	 Better informed donor pool: Registries allow OPOs to contact enrollees with continuing
         education about donation. Contact could lead to more committed donors and raise awareness
         about donation among the public at large.
      C	 More up-to-date records: Information in the registry can be revised easily for enrollees who
         change their name or address, or who change their mind about donation.

METHODOLOGY
      We surveyed the executive directors of the nation’s 59 OPOs in August, 2001. We distributed
      the survey as an attachment to an e-mail, asking the OPO directors to return their responses by
      fax. We received responses from 55 of them (93 percent); 27 of these individuals reported that
      they had experience working with a donor registry.

      Our analysis of the role that registries play is based upon the responses of 22 OPO directors.
      We excluded from our review five of the 27 respondents based on our analysis and discussions
      with them. In one case, an individual who was serving as director of two OPOs responded
      separately for each of them, so we used only one response. In other cases, two respondents
      indicated that they had not really worked with a registry in recent years. Two other respondents
      were from States that are in the process of establishing a new registry, rather than operating an
      existing one.

      Appendix B provides the distribution of these 22 responses to the survey.

      We interviewed more than 50 knowledgeable individuals from OPOs, State agencies, and other
      organizations with involvement in organ procurement. We visited OPOs in five States where we
      interviewed key staff, procurement coordinators, and State officials. We

Organ Donor Registries                             -3-                                     OEI-01-01-00350
      focused these discussions on OPOs and States that had experience with operating a registry, as
      well as on those that were in the process of establishing a registry.

      We reviewed the Internet websites of the OPOs and States to determine what materials were
      available about donor registries and whether it was possible to enroll on-line. We also reviewed
      State laws governing donor registries.

      Throughout this report, we use the term Department of Motor Vehicles (DMV) to describe the
      State agency responsible for issuing driver’s licenses.7 Likewise, we use the term Department of
      Health to refer to the State agency responsible for health services.

      We conducted this inspection in accordance with the Quality Standards for Inspections issued
      by the President’s Council on Integrity and Efficiency.




Organ Donor Registries                            -4-                                    OEI-01-01-00350
                                                FINDINGS

Organ procurement organizations and States are turning to donor
registries as a strategy for increasing organ donation.

Fourteen States operate registries; 22 of the nation’s 59 OPOs operate in these
States.
      These 14 States contain 39 percent of the nation’s population and 42 percent of the total number
      of organ donors recovered in the Year 2000.8 Figure 1 shows the distribution of donor registries.


                                                                 Figure 1
                                                Organ Donor Registries as of October, 2001




                         State-run registries

                         OPO-run registries

                         States with new registries

                         States without registries




      In all of these States, the driver’s licensing and renewal process is the primary entrance point to
      the registry. In seven States, the Department of Motor Vehicles (DMV) maintains the data base
      of enrollees. In four States, the DMV transfers that data to the OPO, which manages the
      registry. In three States, the DMV transfers the data to the State Department of Health, which
      manages the registry. In addition to the driver’s license, many DMVs issue identification cards to
      people who do not drive. Obtaining an identification card also


Organ Donor Registries                                     -5-                               OEI-01-01-00350
      provides the opportunity for someone to enroll in the registry.

      Appendix A contains State-specific information on these registries.

OPOs in two other States operate their own registries.
      OPOs operate registries in Alabama and New Jersey. 9 These States contain 5 percent of the
      country’s population and 5 percent of donors recovered in 2000. Each of these OPOs enrolls
      the registrants and maintains the data in the registry. In Alabama, the OPO’s service area is the
      entire State; in New Jersey, the OPO (the Sharing Network) shares information with Gift of Life,
      which is based in Philadelphia and covers seven counties in the southern part of the State.

      Appendix A contains State-specific information on these registries.

Six additional States, with 13 OPOs, have recently passed laws establishing
registries.
      These States are now in the implementation process. These States contain 21 percent of the

      country’s population and 19 percent of the total number of organ donors recovered in 2000. In

      each State, the driver’s license will serve as the primary point for enrollment. Day-to-day registry

      management, however, will vary. 

      C In Ohio, the DMV will continue to maintain the data and manage the registry. 

      C In Nevada, the data will be transferred to a private donor registry, The Living Bank, based in

        Houston, Texas.
      C In Utah, the DMV will transfer the data to the OPO.10
      C In Virginia, the DMV will transfer the data to the Virginia Transplant Council, an agency in the
        Department of Health, which will manage the registry.
      C In Iowa, the Department of Public Health is authorized to contract for the establishment of a
        statewide organ and tissue donor registry. Start-up funding has not yet been appropriated.
      C In California, which enacted a registry law in October, 2001, the DMV will provide a
        standard form when people receive a driver’s license; the completed form would be mailed to
        the Department of Health, which will maintain the registry. Start-up funding has not yet been
        appropriated.

      Appendix A contains State-specific information on these new registries.

Donor registries have provided assistance to OPOs’ organ
procurement activities.
Registries have led to increased effectiveness and efficiency in OPO operations.

      Identifying donors. Nineteen of 22 respondents to our survey said the registry improved



Organ Donor Registries                             -6-                                     OEI-01-01-00350
      their ability to identify a potential donor’s intent; 17 respondents said it improved the timeliness of
      identification.

      Working with next-of-kin. Even if an individual has indicated willingness to donate, it is
      practice in this country for an OPO to obtain consent from the next-of-kin. Twelve of 22
      respondents said the registry helped gain consent from next-of-kin in a timely manner. Thirteen
      respondents said that the registry information was more convincing than other methods for
      indicating intent, such as a driver’s license, donor card, or living will.

      Most OPOs do not consider a decision to enroll in the registry equivalent to consent for donation.
      Thirteen OPO directors responded they never accept that indication as primary evidence of
      consent, and four said they rarely accept it. Instead, they use enrollment as supporting
      information in their discussion with family members. Only one OPO director responded that the
      OPO always accepts the registry indication as primary evidence of consent if the family disagrees,
      and two OPOs said they occasionally accept this indication.

      Working with hospital staff. Research shows a collaborative approach between OPO staff
      and hospital staff yields the highest consent rates.11 It is reasonable to speculate that a registry
      can help to encourage a collaborative approach. Typical of this improvement are the comments
      of two procurement coordinators. One told us, “When a potential donor is listed in the registry,
      hospital staff are more willing to let us have full access to the family.” A coordinator at another
      OPO said, “If there is no registry indication, the staff may feel that they are wasting hospital
      resources since the person might not be a donor. If the indication is on the license, though, they
      feel that the person will be a donor, so it is worth tying up those resources.”

      Responses to our survey support this view. Thirteen OPO directors responded that the
      information in the registry is more convincing for hospital staff than other methods for indicating
      intent. Nine OPO directors responded that information in the registry improves their interaction
      with the hospital staff when a donor is identified.

      Limited impact on efficiency. Only half of the 22 OPO directors responding to our survey said
      that the registry had improved the overall efficiency of their OPO’s operations. Ten directors
      said that there had been no change, and only one director reported that it had hindered
      operations.

OPOs have used data from the registry to focus public education and outreach
about donation.
      In our interviews and site visits, OPO and DMV staff showed us how they use data from the
      registry to focus their educational efforts. Some OPOs routinely receive data from the DMV at a
      county-specific level, as well as breakdowns by age and gender. OPOs can use these data both
      to assess the impact of advertising campaigns and to identify geographic areas and populations
      that need additional education. Staff with the Illinois registry, which


Organ Donor Registries                               -7-                                      OEI-01-01-00350
      operates an extensive educational campaign, told us that they routinely assess the effects of their

      targeted initiatives by monitoring changes in enrollment. The staff reported that they can

      determine the impact of their targeted educational initiatives by monitoring changes in enrollment

      and donation over time.


      Fourteen OPO directors said the registry has led to a more informed donor pool. The majority of

      OPOs responded that the registry has led them to expand public education activities. These

      activities include:

      C   Creating new advertisements and public service announcements;

      C   Developing materials for educating people when they enroll in the registry;

      C   Providing training curriculum for DMV personnel;

      C   Designing educational programs for other agencies and organizations; and

      C   Enhancing the OPO’s web site.


      Seven OPO directors responded that the registry has led them to expand all five of these

      activities; five OPOs responded that the registry has led them to expand their work in four of

      these activities.


      However, only one OPO director reported that his organization maintained ongoing

      communications with registry enrollees. This number may reflect the cost of ongoing

      communication--postage and staff time are direct costs, and the OPOs may feel that funds could

      be put to better use for other initiatives. Alternatively, this response may indicate that OPOs

      believe that the critical activity is convincing people to join the registry in the first place. They may

      consider reinforcement of that decision to be less important.


There are limits to the contribution registries can make to
increasing the number of donors.
Registries’ measurable impact on increasing the number of organ donors has
been marginal.

      In responses to our surveys and in our interviews, OPO directors credited the registry with only a
      modest impact on the number of people willing to donate, donors recovered, and the consent rate
      for donation.

      Out of 21 responses to the survey, 14 OPO directors said that the number of people in their
      States willing to donate organs had increased, while seven said that there had been no change.

      Twelve OPO directors said the actual number of organ donors had increased, and 13 responded
      that families’ rate of consent had increased. However, only one director reported a large
      increase in donors, and only two reported a large increase in the consent rate.



Organ Donor Registries                               -8-                                        OEI-01-01-00350
      We reviewed data from two OPOs with several years experience in using registries. These data
      show that families of people who have enrolled in the registry provide consent for donation at a
      higher rate than do families of those who have not enrolled. However, at both OPOs, registry
      enrollees account for a relatively small proportion of all donors.

      Table 1 shows the results of this analysis. When asked to join the registry for OPO-A, “Yes” is
      recorded to indicate enrollment; if the person does not wish to join, there simply is no designation.
      At OPO-B, people are asked if they wish to join the registry, and the response can be “Yes, I
      want to enroll,” “No, I do not want to enroll,” or “No decision.”

      Both OPOs had a higher consent rate from families of people who had joined the registry. At
      OPO-A 100 percent of the families of enrollees consented; at OPO-B 76 percent of families
      gave consent. About 40 percent of the population in both States had enrolled in the registry.
      However, only one-quarter of those who actually donated had enrolled.12

                                              Table 1
                           Comparison of Consent for Registry Enrollees and
                                     Non-Enrollees at Two OPOs

                                                                             Percent of All
                                                     Family Consent
                 OPO         Registry Status                                 Donors for the
                                                          Rate
                                                                                 OPO

                   A      Enrolled                        100 %                  23 %

                          No Designation                   49 %                  77 %

                   B      Enrolled                         76 %                   25 %

                          Rejected Enrollment              44 %                   22 %

                          No Decision                      60 %                   53 %

                Data provided by two OPOs for January - August, 2001.

Registries contain only a limited number of donor indications.
      We estimate, based on data provided by the OPOs, that about 27 percent of the aggregate
      population over the age of 18 in the 14 States with registries have actually enrolled in the
      registry.13 There is wide variation in these percentages. Only two States, Georgia and Colorado,
      indicated that more than 50 percent of the over-18 population have enrolled.14 Three other
      States have enrolled between 40 and 50 percent. At the other end of the spectrum in two
      States, less than five percent had enrolled. We provide our estimates of State by State
      enrollment in Appendix A.

      It is difficult to obtain accurate data on the number of registrants. In some States, there are
      duplicate enrollments, the exact number of which are not known. For example, DMV staff

Organ Donor Registries                              -9-                                       OEI-01-01-00350
      in one State estimated that as many as 20 percent of those listed in the registry may be duplicates;
      in another State, an OPO official told us that duplicates account for between 15 and 20 percent
      of enrollees. These officials indicated that deleting duplicate enrollments would be expensive,
      while yielding little benefit: if someone’s name appeared twice in the registry, it still would result in
      only one potential donor.

      Despite the uncertainty in the data, there appears to be potential for increasing the number of
      people enrolled. It is not clear what is a realistic expectation for enrollment. One OPO director
      told us that enrollment had grown steadily in his State until recent months, when it has stagnated at
      40 percent; he was unsure if this level was temporary or if enrollment had reached an upper limit
      pending more aggressive educational campaigns and interventions.

While registries can foster interstate sharing of information about potential donors
from other States, the number of such cases is small.
      One purported advantage of registries is their use to link OPOs in different States. By contacting
      the registry in the decedent’s home State, an OPO could determine if that individual had enrolled.

      As Table 2 shows, out-of-State organ donors account for almost 20 percent of all donors, an
      average of 3 donors per day across the country. 15 It is possible that finding the family of a
      potential donor from another State may take extra work on behalf of the OPO. It also is possible
      that more out-of-State donors could be identified if registries operated in more States, or even
      nationally. At present, however, the actual number of out-of-State donors does not appear to
      constitute a consistently heavy workload.

                                                 Table 2
                                Out-of-State Organ Donors, 1999 and 2000

                    Total      In-State Donors      Out-of-State Donors       Average Out-of-State
          Year
                   Donors        (% of Total)          (% of Total)             Donors per Day

                                    4,922                     1,062
          2000      5,984                                                              2.9
                                  (82.3 %)                  (17.7 %)

                                    4,710                     1,100
          1999      5,810                                                              3.0
                                  (81.1 %)                  (19.9 %)

         Source: Division on Transplantation, Health Resources and Services Administration


      In our interviews with OPO officials, they indicated that when a potential donor from another
      State is identified, the procurement coordinator contacts the OPO in the home State to determine
      how to proceed. If there is a registry in that State, the coordinator would ask the OPO to
      contact it. The home-State OPO, if it were able to obtain useful information, would then provide
      it to the OPO that initiated the request.



Organ Donor Registries                               -10-                                      OEI-01-01-00350
We identified a number of practices that could enable OPOs to take
fuller advantage of the opportunities that registries offer.
      In our interviews with knowledgeable individuals, both in the OPO community and elsewhere, we
      identified a number of innovations that OPOs and donor registries are using. We have not
      evaluated the success of any of these innovations. We do not claim that these approaches are the
      full range of possibilities, or are indicative of all actions currently underway. Nevertheless, we
      believe they are illustrative of the types of innovations that can maximize registries’ contribution to
      increasing donation.

Registration
      One OPO director told us, “The most critical component of a registry is an easy way to designate
      intent. No matter how well informed and educated a potential donor is, there has to be an easy
      way to take action on their decision.” Here we describe four approaches that make it easy to
      enroll in the donor registry.

      Preprinted postage. In Michigan, the DMV has begun to include a separate preprinted,
      postage-paid form with every driver’s license renewal application. On the back of the form is a
      donor card, with the person’s name already filled in. In order to register, the person simply has
      to check the box on the card, sign it, and drop it in the mail. When the DMV receives the card, it
      scans it into a computer in a digitized format, including the individual’s signature.

      Electronic kiosks. Louisiana Organ Procurement Agency (LOPA) allows people to enroll at
      electronic kiosks that also provide public service announcements. These kiosks are located at
      the Superdome, at transplant centers, in hospital emergency rooms, and at colleges and
      universities. LOPA can tailor the individual kiosks to provide a relevant message. For example,
      the kiosks at the Superdome provide information on NFL scores and statistics; according to the
      OPO staff, “First they have to listen to a 30 second commercial on organ donation.” The kiosks
      at the universities provide students with access to their e-mail accounts. LOPA estimates that
      each kiosk costs about $5,000 to set up and operate, but the OPO is sharing the costs and ad
      revenues with sponsors. For example, medical supply companies co-sponsor the kiosks in some
      hospitals.16

      Computerized data base of donor cards. The Center for Organ Recovery and Education
      (CORE), based in western Pennsylvania and West Virginia, maintains its own separate internal
      registry, in addition to the DMV registry. This registry contains about 45,000 enrollees. The
      organization enrolled these individuals prior to the start of the DMV registry; it continues to add
      new enrollees through health fairs, educational programs, and phone-ins. CORE keeps these
      names on its own computer system, and the original signed document is kept at the CORE
      offices. This registry is an important source of enrollees since about one-third of the adult
      population in the CORE service area do not drive and, thus, do not participate in the DMV
      registry.


Organ Donor Registries                              -11-                                      OEI-01-01-00350
      Internet enrollment. OPOs from seven States told us that they use the Internet for enrollment
      into the registry. These include the OPOs in New York, Illinois, Louisiana, Michigan, and
      Colorado. In addition, the two OPO-run registries--the Sharing Network in New Jersey, and the
      Alabama Organ Center--use Internet enrollment.

Storage
      Ready access to the registry is critical if the OPO is to use that information as it approaches
      donor families. One way of improving that access is to maintain the data at the OPO, rather than
      at the DMV. Efforts to achieve this include:

      Automatic downloads of registry data to the OPO. In Michigan, the DMV downloads the
      file with the scanned cards onto a compact disc and sends it to the OPO weekly. The DMV then
      deletes the file with those scanned cards, because it does not want to maintain personal medical
      information. In essence, the DMV acts as a conduit to get the information to the OPO, which
      then controls access to the registry information.

      Colorado has a similar arrangement. The legislation creating the registry requires the DMV to
      transfer the relevant information from the driver’s license to the OPO. (In practice, the data are
      downloaded to the contractor that Donor Alliance uses to receive referral calls about potential
      donors.) The DMV collects the basic information at driver’s license issuance/renewal and sends
      this electronically to Donor Alliance.

      Health Department maintenance of registry data. As Virginia implements its registry, the
      DMV will continue to collect information as part of the licensing process. The DMV will
      download the names of enrollees to the Virginia Transplant Council, which is part of the
      Department of Health. The Council will then manage the registry, which is accessible to both of
      the State’s OPOs and other procurement organizations. The Council has contracted with a
      vendor to buy space on the vendor’s computer system; the vendor has a toll free hotline available
      to deal with any problems that arise.

Retrieval
      Traditionally, OPOs have accessed information by a telephone call either to the State police or
      the DMV, which then accesses its data base to determine if someone has enrolled. The
      disadvantages of this approach include busy signals, no answers, a lengthy period between the
      initial request and response, and the use of the system for other tasks and users. Efforts to
      address these problems include the following:

      Automated queries of the data. The OPOs in Colorado, Michigan, and Louisiana access the
      registry information automatically. When Colorado’s Donor Alliance receives a referral call, an
      automated query of the registry is made as part of the referral process. In Michigan calls are
      logged into the OPO computer system; before staff can close the computer screen,

Organ Donor Registries                            -12-                                     OEI-01-01-00350
      they must hit a function key that automatically queries the Registry. The Louisiana OPO uses an
      ambulance service that receives 911 calls. The referral software includes a query to get the
      name, Social Security Number, and date of birth of the potential donor. The computer then
      automatically checks the registry.

      Direct computer access to the registry. As a general rule, DMVs want to limit access to
      registries, because the information contained in their data bases goes well beyond donor
      information.17 However, in Delaware, the OPO uses a modem to dial into the registry; staff can
      then see and obtain the licensing information on the screen, with the necessary information about
      the organ donor. In Ohio, plans call for the DMV to provide the OPOs with inquiry terminals,
      through which the OPO staff can retrieve information about an individual who has joined the
      registry.

      Copy of registry information. In some states, the DMV provide verbal acknowledgment of
      the donor status. Elsewhere, the police are able to access the original license application and fax
      it to the OPO. The OPO then can determine the person’s intent and share a hard copy with the
      family. OPOs in Tennessee and Colorado told us they receive a hard copy of the information.

Using information
      Responses to our survey showed that most OPOs do not use the indication in the registry as
      primary evidence of consent. This practice, however, appears to be changing.

      Complete evidence of consent. OPOs in two States--CORE, based in Pittsburgh, and
      Tennessee Donor Services, based in Nashville--reported they are using information from the
      donor registry as primary evidence of donor consent. They believe the indication in the registry
      provides a sufficient basis on which to proceed to recover organs without the need for formal
      consent from the next-of-kin.

      OPOs in other States are starting to use this indication for primary consent, as changes and
      clarifications in their State Uniform Anatomical Gift Acts have reinforced the primacy of these
      wishes. OPOs in Virginia, Colorado, Ohio, and Utah told us they are moving or have moved
      recently towards using the donor indication in the registry as sufficient for recovery without the
      need for further consent.18

      These OPO staff and directors told us they need physical evidence of the donor’s intent prior to
      proceeding. They will not go forward with recovery solely on the basis of a telephone message.
      One director told us his OPO staff needs the original signed donor card or driver’s license.
      Others told us that a facsimile copy or electronic copy suffices. A copy of the document is
      placed in the hospital record and the OPO recovery record.

      It is important to recognize in these cases that the OPO does not merely procure organs without
      any discussion with the family. Rather, OPO staff approach the family with words


Organ Donor Registries                             -13-                                      OEI-01-01-00350
      along the lines of, “Your loved one made a decision to donate, and this is what needs to be done
      to carry out those wishes.”

      We identified four reasons that OPO staff and directors gave for proceeding with procurement on
      the basis of the driver’s document alone:

      C	 Most people who have signed a driver’s license or donor card assume they have signed up to
         be a donor, not that they merely are having their name entered into a registry.
      C	 OPO procurement staff and requestors told us that using the document as evidence of
         donation “makes it easier on the family. They already are dealing with a tragic situation, and
         anything we can do to make it easier is worthwhile.”
      C	 A registry serves little purpose if it is not used for consent. One OPO director summarized this
         concern when she told us, “This is the only thing that makes sense with a Registry. If you
         don’t act on the individual’s wishes stated there, then why bother to do it.” Another OPO
         director told us, “The government and OPOs spend millions of dollars on donor cards, but
         they never use them. Why are we spending this money if they don’t mean something?”
      C	 Families rarely override the registry information. One director told us that, “We have
         procured over 4,000 organ and tissue donors on the basis of the registry. In that time, we
         have had only three families object to our going ahead. We’ve continued to work with those
         families, and two of them are now very active supporters in our organization.”

      Other OPOs, however, have chosen to not proceed with donation on the basis of the registry
      indication alone. The ways in which these OPOs use the registry information vary widely. In
      some OPOs, the staff do not share this information with the family unless a member of the family
      asks specifically if the OPO knows what the person wanted.

      Elsewhere, OPO staff use the information more aggressively. Rather than simply approach the
      family and request consent, the conversation takes on a different tone, so that “it is an affirmation
      of his wishes,” rather than requesting consent. While these OPOs do not proceed with
      procurement if the family objects, this approach does make a basic assumption that the
      decedent’s wishes will be carried out.

      One director who does not use the card as primary consent typified concerns of others when he
      cited “philosophical difference with others” on the extent to which his OPO will use the
      information. He cited four reasons for not using the card as primary consent:

      C	 He has concerns about the accuracy of the registry data base. For example, the address in the
         registry may differ from the address on a decedent’s driver’s license.
      C	 Members of the OPO board of directors are “nervous about the front page image of
         overriding a family decision.” Most families go along with the indication, but the OPO


Organ Donor Registries                             -14-                                      OEI-01-01-00350
         staff do not want to force the issue if the family is opposed.
      C	 Even if the donor card is legal consent, the OPO still must get the medical-social history from
         the family. If the family does not cooperate in providing that information, the organs and
         tissues might not be able to be used.
      C	 He is skeptical of claims that productivity will be increased by using only the donor card. “The
         registry and that information is only one part of the process of obtaining consent.” The OPO
         staff feel more comfortable presenting the information about enrollment to the family during the
         discussion about donation, rather than making an assumption based on what was contained in
         the data base.




Organ Donor Registries                             -15-                                    OEI-01-01-00350
                         RECOMMENDATIONS
      We conclude from our review that caution should be exercised to avoid over-promising on the
      contributions that donor registries, by themselves, can make toward increasing donation.
      Registries are one tool available to OPOs, and they add value to OPOs’ efforts.

      But we also found that registries’ impact on increasing the number of organs available has been
      marginal. However, with almost 80,000 seriously ill Americans waiting for an organ transplant,
      even marginal improvements are important.

      Our review also found that the majority of the population in this country reside in states that
      currently have a registry or are in the process of implementing legislation to establish a registry. In
      addition, most other States are considering establishing registries.

      In light of this, we believe the most appropriate use of Department resources with respect to
      donor registries is to foster ways to enhance their effectiveness. Toward that end, our
      recommendations focus on two strategies the Department should adopt: A clearinghouse of
      information on donor registries and research on maximizing their potential impact.

HRSA should establish a mechanism to provide for dissemination of information
on donor registries that can be used by the organ procurement community, State
governments, and other relevant entities.

      The purpose of the clearinghouse would be to enhance the effectiveness of donor registries.
      Through the clearinghouse, HRSA could support information sharing among the States and
      OPOs. This sharing might include, for example, making experts available to work on
      implementation issues. The clearinghouse might serve as a forum for convening conferences, with
      technical papers that focus on protocols, effective standards, and successful practices.

      In this report we identified a number of innovative practices and approaches that appear to offer
      promise for enhancing effectiveness. Undoubtedly there are other approaches that the
      clearinghouse could share.

      We would urge that the clearinghouse pay particular attention to three areas:

      C	 Automation. We found limited use of automated approaches that take advantage of current
         technology in the operation of registries. Our survey of OPO directors revealed that technical
         difficulties related to retrieval of information are an important constraint on the usefulness of
         registries. Certainly, one focus could be on ways of making data retrieval more efficient and
         useful.




Organ Donor Registries                              -16-                                      OEI-01-01-00350
      C	 Innovation. The driver’s licensing process continues to be the main gateway for registry
         enrollment. Innovations could be particularly useful in identifying and developing new avenues
         for enrolling in the registry. For example, consideration could be given to expanding the use of
         technology to enroll people through Web Sites or through the Internet at community events.
         Other countries also could provide lessons about approaches to enrolling people in donor
         registries. From a limited review of such methods, we found that other countries use many
         methods in addition to the licensing process to register enrollees. These methods include forms
         at physicians offices and pharmacies, as well as credit card solicitations.19

      C	 Education. OPOs have many tools they use to educate the public about donation. A
         clearinghouse could provide other organizations with information about which tools have
         proven effective in informing the public about the registry, its benefits, and the need for organs.

To the extent that funding is available, HRSA could support research projects that
seek to maximize the potential impact of donor registries.

      HRSA already provides grant assistance to entities in order to improve the effectiveness of the
      organ donation and transplantation system. Below, we describe two useful areas of inquiry for
      additional research on donor registries.

      What more can be done to tap the potential of registries? Even those registries in place for
      many years contain a minority of the State’s population. Questions that might be addressed
      include:
      C Are there ways to provide better education about donation while people are waiting in line to
        get their driver’s license or before they arrive at the DMV?
      C What are effective alternatives to that licensing process as a way of registering people?
      C If people are reluctant to list their names in a large database, what can be done to allay those
        fears?
      C How can donation, and consideration of joining a registry, be better incorporated into
        discussions about end-of-life issues?

      How widespread are concerns about using the registry as primary consent for donation?
      More OPOs are using or planning to use the indication in the registry as evidence of consent,

      rather than relying on consent from the family. This raises a number of questions, including: 

      C How informed are people when they join a registry? 

      C Do they view enrollment as providing consent for donation? 

      C What are family expectations and understandings about joining the registry?





Organ Donor Registries                             -17-                                      OEI-01-01-00350
COMMENTS ON THE DRAFT REPORT
      We received comments on the draft report from the Department’s Health Resources and
      Services Adminstration (HRSA), which houses the Division of Transplantation.

      HRSA concurs with our report and recommendations, particularly our recommendation that
      HRSA establish a clearinghouse to promote information sharing and technical assistance. In
      addition, the agency made a number of technical comments. We appreciate HRSA’s
      concurrence in our report, as well as the agency’s ongoing work in support of increasing
      donation. We have incorporated the agency’s technical comments in this final report.

      The Association of Organ Procurement Organizations (AOPO) also provided comments.
      AOPO raises three broad issues. We summarize each issue and give our response in italics.

      First, AOPO believes that while our report provides useful information on the current status of
      registries, it may understate their future value. We base our report on the experiences of those
      who have worked with donor registries, and on a review of available data about registries.
      This review leads us to conclude that registries can be a useful tool in organ procurement.
      But we urge caution in assuming that establishing a registry will lead directly to a dramatic
      increase in the number of donors. That has not been the experience to date. At the same
      time, however, given the critical need for donors, even a moderate increase in their number
      can be beneficial. We certainly would encourage ongoing evaluation of new registries and
      other initiatives intended to increase donation.

      Second, AOPO urges that additional attention be paid to donor preference legislation. Such
      legislation would consider an individual’s decision to join a registry as documentation for consent,
      rather than as a declaration of intent that would require familial consent. Where we discuss how
      OPOs use registry information as evidence of consent, we do so to present a balanced view
      of this controversial issue within the context of registry operations. The discussion in our
      report clearly shows that there are multiple views on this issue, even within the organ
      procurement community.

      Third, AOPO cites the value of ongoing work with States about donation initiatives and new
      legislation. We agree that State officials are key parties in developing programs to increase
      donation. The Secretary, HRSA, and other agencies of the Department continue to work
      actively with State officials on donation issues. For example, as cited in AOPO’s
      comments, HRSA convened a conference on donor registries in November, 2001, which
      facilitated networking among State officials and organ procurement agencies. We also
      believe, however, that it is incumbent upon the local organ procurement organizations to
      perform ongoing education and dissemination for their elected State and local officials.

      Appendix C contains the full text of both sets of comments.

Organ Donor Registries                            -18-                                     OEI-01-01-00350
                                              Description of Donor Registry Features                                                                 APPENDIX A


                                                                                                                Estimated      % of      Cadaveric
              Number       Primary                Enrollment            Primary Method of      Who has access
    State                                                                                                       Enrollmen    adults in   Donors in             Statute
              of OPOs      Manager                 Methods                Access to Data          to Data
                                                                                                                    t*       Registry      2000

  State Registries
Arkansas                                Driver’s License,
                 1      DMV                                           OPO via Internet        OPO                  807,000         40%          35 Chapter 75 of 1997
                                        Mail-in Card
                                                                                                                                                   Senate Bill 00-054
                                        Driver’s License, Internet,
Colorado         1      OPO                                           OPO computer            OPO                1,800,000         56%          78 (2000), Chapter 175 of
                                        Mail in Card
                                                                                                                                                   2000, CRS 12-34-101.5
                                                                      OPO via Internet,       OPO, State                                             DE Statutes Title 16,
Delaware         2      DMV             Driver’s License                                                           219,000         37%          24
                                                                      DMV                     Police, DMV                                            §2724
                        Agency Health   Driver’s License, Mail-in                                                2,800,000
Florida          5                                                    OPO via Internet        OPO                                  23%         440 FL Statutes, §765
                        Care Admin.     card
                                        Driver’s License,                                                                                            CGA §40-5-25 (Chapter
Georgia          1      OPO                                           OPO via Internet        OPO, DMV           3,200,000         53%         170
                                        Mail-in card                                                                                                 608 of 1996)
                                                                      Telephone to
                                        Driver’s License, Internet,                           State Police,
Illinois         2      DMV                                           Secretary of State’s                       4,100,000         45%         284 625 ILCS 5/6-110
                                        Mail-in card                                          DMV
                                                                      Police
                                        Driver’s License, Internet,
Louisiana        1      OPO                                           OPO via Internet        OPO, DMV             711,000         22%         100 RS Chapter 32, §410
                                        Mail-in card
                                        Driver’s License,             Telephone to State
Maryland         2      DMV                                                                   State Police       1,445,000         37%         106 Chapter 1, Acts of 1998
                                        Mail-in card                  Police
                                        Driver’s License, Internet,
Michigan         1      OPO                                           OPO computer            OPO                  310,000          4%         199 Vehicle Code §307
                                        Mail-in card
                                                                                              OPO, Health                                            MoRS Chapter 194.304
Missouri         2      Health Dept.    Driver’s License              OPO via Internet                           1,800,000         43%         156
                                                                                              Department                                             (HB 178 of 1995)
                                        Driver’s License, Internet,
New York         4      Health Dept.                                  OPO via Internet        OPO, DMV             123,000          1%         334
                                        Mail-in card
Pennsylvan
                 2      DMV             Driver’s License              Telephone to DMV        OPO                3,500,000         37%         366 Act 102, 1994
ia



             Organ Donor Registries                                                          -19-                                                               OEI-01-01-00350
                                                    Description of Donor Registry Features                                                                    APPENDIX A




                                                                                                                         Estimated      % of      Cadaveric
                 Number         Primary                 Enrollment                Primary Method of     Who has access
    State                                                                                                                Enrollmen    adults in   Donors in            Statute
                 of OPOs        Manager                  Methods                    Access to Data         to Data
                                                                                                                             t*       Registry      2000
                                                                                                       OPO, State
Tennessee            2     DMV                Driver’s License                  Telephone to DMV                            650,000         15%         136 Tenn Statutes, §4-3-2011
                                                                                                       Police
West                                                                                                                                                          WV Code, Article 1B,
                     1     DMV                Driver’s License                  OPO via Internet       OPO                  270,000         19%          46
Virginia                                                                                                                                                      §17B-1B
    OPO-Run Registries
Alabama              1     OPO                Internet, Mail-in Card            OPO computer           OPO                    2,000         <1%         127
                                              Internet, Mail-in card
New Jersey           2     OPO                                                  OPO computer           OPO                    1,400         <1%         174

    New Registries
California           4     Health Dept.                                                                                                                 571 Senate Bill 108 (2001)

Iowa                 1     Health Dept.                                                                                                                  62 2000 Acts, Chapter 1052,
                                                                                                                                                            §2
                                                                                                                                                              Assembly Bill 497
Nevada               2     Living Bank                                                                                                                   44
                                                                                                                                                              (2001), Chapter 460 NRS
Ohio                 4     DMV                                                                                                                          254 Senate Bill 188 (2000)
Utah                 1     OPO                                                                                                                           50 Chapter 117 (2001)
                                                                                                                                                            Virginia Code, §32.1-
Virginia             2     Health Dept.                                                                                                                 123 292.2, Chapters 481 &
                                                                                                                                                            490 (2000)



           *enrollment estimate for Summer, 2001. Exact date varies by State.




                Organ Donor Registries                                                                -20-                                                              OEI-01-01-00350
                 Responses to Survey of OPO Directors                                            APPENDIX B


I. Efficiency
                                                     Improved       Improved      No        Hindered     Hindered     Missin
                                                      Greatly       Somewhat     Change     Somewhat     Greatly        g

  Overall, how has working with a donor
  registry affected the efficiency of your              3                8         10           1           0           0
  OPO’s operation?

  More specifically, how has the registry
  affected your OPO’s ability to:

     Identify a potential donor’s intent?               6               13          2           0           0           1
     Get information about a decedent’s
     intent in a timely manner?
                                                        7               10          4           0           0           1

     Gain consent from next-of-kin in a
     timely manner?
                                                        1               11          8           0           0           2

     Interact with hospital staff when a
     potential donor is identified?
                                                        1                8         12           0           0           1


    II. Accepting Donor Intent

                                                                Somewhat                    Somewhat
                                             Much More                             No                    Much Less      Missin
                                                                  More                        Less
                                             Convincing                        Difference                Convincing       g
                                                                Convincing                  Convincing

 Overall, how does the registry
 compare with other indications of               5                  7              4            2            0              4
 intent in its persuasiveness?

 More specifically, how persuasive
 do the following parties find
 intent stated in the registry:

  Next-of-kin?                                   7                  6              3            1            0              5
  OPO staff?                                     8                  3              6            0            0              5
  Hospital staff?                               11                  2              3            1            0              5
   Coroner/ medical examiner?                    7                  1              7            1            0              6




    Organ Donor Registries                                        -21-                                   OEI-01-01-00350
               Responses to Survey of OPO Directors                                                           APPENDIX B


                                                         Always          Frequently       Occasionally         Rarely        Never      Missing

  Does your OPO accept the registry’s
  documentation of intent as consent for                   1                 0                 2                 4               13         2
  donation, even if the family disagrees?


  III. Size of Donor Pool

What effect would you say that                 Increased       Increased           No              Decreased         Decreased
                                                                                                                                      Missing
the registry has had on:                        Greatly        Somewhat           Change           Somewhat          Greatly

The number of people in your state
willing to donate organs?
                                                     3             11                 7               0                  0              1

The number of organ donors that
your OPO has recovered?
                                                     1             11                 9               0                  0              1

The consent rate for organ donation?                 2             11                 8               0                  0              1

  IV. Better Informed Donor Pool

                                               Much            Somewhat More                         Somewhat              Much
                                                                                       No
                                               More               Informed                             Less                 Less       Missing
                                                                                      Change
                                             Informed                                                Informed            Informed

Overall, how would you assess the
effect of the registry on the public’s           3                    12                  6               0                  0             1
knowledge about donation?


  More specifically, has having a registry led you to expand public education in any of the
  following areas:
                                                                                                         Yes      No

           Advertising and public service announcements?                                                 15          7
           Development of materials for distribution at enrollment?                                      16          6
           Training curriculum for State motor vehicle agency personnel?                                 13          9
           Educational programs for other agencies/ organizations?                                       15          7
           Establishment/ expansion of your OPO’s web site?                                              14          8
           Ongoing communication with registry enrollees?                                                 1       21


  Organ Donor Registries                                          -22-                                                   OEI-01-01-00350
          Responses to Survey of OPO Directors                                              APPENDIX B

V. Reliability of Information

                                                                      Always      Usually       Rarely        Missing

           Overall, would you say the information in the
          registry is reliable?
                                                                        8             11           1             2

          More specifically, is the information:

          Up-to-date?                                                   5             13           2             2
          Accurate?                                                     6             12           1             3

VI. Concerns
  Have you encountered problems with the registry in any of the following areas:


                                                                Major           Minor          No
                                                                                                           Missing
                                                              Problems         Problems     problems

          Privacy of personal information?                        1               2           18             1
          Start up costs?                                         5               4           10             3
          Ongoing operational costs?                              3               6           11             2
          Computer problems?                                      5              10            6             1
          Accessibility by telephone?                             2               5           10             5

VII. Registry Profile

  What organization has primary responsibility for administering the registry?

      Your OPO      6
      State motor vehicle agency       7
      State department of health        3




Organ Donor Registries                                     -23-                                        OEI-01-01-00350
          Responses to Survey of OPO Directors                                          APPENDIX B


Which of these methods can people use to enroll in the registry?

                                                                     Yes           No

         Driver's license application/ renewal process               14            2
         Internet sign up                                             7            9
         Mail-in card                                                11            5

How does your OPO get information from the registry about a potential donor?

                                                                     Yes           No

          OPO staff obtain information directly from
          registry via Internet/ computer
                                                                     12            4

          OPO contacts State police, which provides
          information from the registry
                                                                      2           14

          OPO contacts motor vehicle agency, which
          provides information from the registry
                                                                      3           13


Who has direct access to the registry for information about a potential donor’s intent?

                                                                     Yes           No

              OPO staff                                              14            2
              State police                                            4           12
              State motor vehicle agency                              6           10
              State department of health                              2           14




Organ Donor Registries                               -24-                                   OEI-01-01-00350
                                                                                                  APPENDIX
                                                                                                  C


                                  Comments on the Draft Report




                                                                                                                      Page

  Health Resources and Services Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

  Association of Organ Procurement Organizations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29




Organ Donor Registries                                     -25-                                            OEI-01-01-00350
                                APPENDIX
                                C




Organ Donor Registries   -26-      OEI-01-01-00350
                                APPENDIX
                                C




Organ Donor Registries   -27-      OEI-01-01-00350
                                APPENDIX
                                C




Organ Donor Registries   -28-      OEI-01-01-00350
                                APPENDIX
                                C




Organ Donor Registries   -29-      OEI-01-01-00350
                                APPENDIX
                                C




Organ Donor Registries   -30-      OEI-01-01-00350
                                                                                   APPENDIX
                                                                                   D

                                              Endnotes

1. United Network for Organ Sharing, http://www.unos.org, January 4, 2002

2. Steven Gortmaker, Carol Beasely, et al., “Organ Donor Potential and Performance: Size and
Nature of the Organ Donor Shortfall,” Critical Care Medicine, 24: 432-439.

3. United Network for Organ Sharing.

4. The United Network for Organ Sharing, a nonprofit organization based in Richmond, Virginia, holds
the contract to operate the OPTN. The University Renal Research and Education Association, based
in Ann Arbor, in collaboration with the University of Michigan, holds the SRTR contract.

5. S. 788 was introduced by Senator Schumer. A House companion version of this bill, H.R. 2645,
was introduced by Representative Boswell.

6. S. 1062 was introduced by Senator Durbin and others.

7. The agency responsible for issuing driver’s licenses is also called the Bureau of Motor Vehicles,
Office of Motor Vehicles, Registry of Motor Vehicles, or the Motor Vehicle Administration.

8. Arkansas, Colorado, Delaware, Florida, Georgia, Illinois, Louisiana, Maryland, Michigan, Missouri,
New York, Pennsylvania, Tennessee, and West Virginia.

9. The Alabama Organ Center and the New Jersey Organ and Tissue Sharing Network.

10. The Health Resources and Services Administration (HRSA) is supporting the development of the
Utah registry through a grant that will “study the utility of a new, comprehensive, centralized statewide
organ and tissue donor registry system and its impact on declarations of intent, consent rates, and organ
and tissue donation. The project also will use the registry to evaluate both interest in, and actual,
unrelated living donation rates within a multi-hospital system.” (HRSA press release.)

11. William DeJong et al., “Requesting Organ Donation: An Interview Study of Donor and Nondonor
Families,” American Journal of Critical Care 7 (January 1998) 1: 13-23; Michael J. Evanisko et al.,
“Readiness of Critical Care Physicians and Nurses to Handle Requests for Organ Donation,”
American Journal of Critical Care 7 (January 1998) 1: 4-12; Patrick McNamara and Carol Beasley,
“Determinants of Familial Consent to Organ Donation in the Hospital Setting,” Clinical Transplants
1997, Cecka and Terasakai, Eds., (UCLA Tissue Typing Laboratory, 1998), 219-229.

12. All differences are significant at p<.01, using a Chi-square test.


Organ Donor Registries                             -31-                                   OEI-01-01-00350
                                                                                     APPENDIX
                                                                                     D

13. We use the over-18 population both because it tends to be the age of majority, and it reflects those
likely to have applied for a driver’s license. About 20 percent of the total population has enrolled in
those States.

14. Georgia discounts the cost of a driver’s license renewal, down to $8 from $15, for those who
enroll in the registry. The total for Colorado includes people who had signed their driver’s license
showing an intent to be a donor prior to the establishment of the registry..

15. We recognize that there is seasonal and daily variation in donation rates, and that some States
encounter more out-of-State donors than others; yet the point remains that the burden is simply not that
large.

16. The development and use of these kiosks has been supported through a grant from HRSA.

17. In some States, the DMV data base may include such information as voting registration, criminal
convictions, and child support judgements.

18. Four OPOs operate in Ohio. At this point, it is not clear if all of them will use the registry
indication as primary consent.

19. We looked at available literature and conducted an Internet review of enrollment in other countries.
In British Columbia, Canada, for example, people may enroll in the registry at all doctors' offices,
pharmacies, automobile insurers, and credit unions, in addition to the DMV.

In the United Kingdom, people can enroll when renewing their driver's license or passport, when
registering with a new general practitioner, or online through the National Health Service website. In
addition, many credit card application forms allow customers to sign up for the registry.

The Australian Health Insurance Commission (HIC), which administers the country’s universal health
insurance program, maintains the register. HIC uses a resident's health number to organize donation
information. Residents can enroll by printing a form at the HIC website and mailing it in to HIC. There
are also sign-up forms at every Medicare office. In addition, many states have registries connected to
the driver's license renewal process and the information they collect is forwarded to the national
register.




Organ Donor Registries                             -32-                                      OEI-01-01-00350
